U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


     OPERATIONAL FUNDING STATUS,
      DEPARTMENT OF EDUCATION,
        GOVERNMENT OF GUAM

             REPORT NO. 98-1-643
                AUGUST 1998
                                                                       N-IX-GUA-003-97-A


              United States Department of the Interior
                             OFFICE OF I&SPECTOR GENERAL
                                   Washington, D.C. 20240




Ms. Gloria Nelson
Chairperson
Interim Board of Education
P.O. Box DE
Agana. Guam 96932

Subject:   Audit Report on Operational Funding Status. Department of Education,
           Government ofGuam (Iio. p?-I-6!+3)

Dear Ms. Nelson:

This report is the first in a series of reports on various operations of the Department of
Education, Government of Guam. It presents the results of our review of Education’s
operational funding status as of April 30, 1997. The objective of our review was to
determine whether the Departments of Education and Administration complied with
applicable laws and budgetary and accounting procedures relating to the allocation and
transfer of appropriated and encumbered funds upon the change of the Department of
Education’s primary funding source from General Fund appropriations to the Gross Receipts
Tax during April and May 1997. The scope of the audit included the status of Education
funds as of April 30, 1997, and related financial transactions and Legislative and Executive
branch actions affecting the funds that occurred during the period of ?c/iay 1997 to February
1998.

We concluded that the Government of Guam needed to make improvements in the areas of
financial legislation and financial management. Specifically, we found that the Department
of Education’s financing of routine operations was disrupted in May 1997 because the
Department of Administration transferred S5.6 million from hv.0 Education bank accounts
to a General Fund bank account without Education’s knowledge or approval and, as of
February 28, 1998, had not returned S3 million in unused funds or provided Education with
an accounting of the expended funds. Administration made these transfers as part of its
effort to comply with Public Law 23-17 to change Education’s main operations funding
source. However, the transfers were not in accordance viith the intent of Public Law 24-l 7
or the language of Public Law 23-34, the latter of which \\.as subsequently enacted to require
that existing accounts related to Education be transferred to the School Operations Fund.

These conditions occurred because (1) the Public Laws did not identify which funds
Education should retain and did not provide for a transition period to implement the
mandated changes, (2) the Departments of Administration and Education did not coordinate
effecti\.ely during the transition process, and (3) Administration did not ha\ve adequate
written procedures for closing bank accounts. We determined that, as a result, Education did
not haLee access to more than $3 million in previously available funds and was unable to
determine exactly what financial resources would be a\.ailable for fiscal year 1997
operations. Additionally. Education had to pay $2.8 million of the expenses incurred prior
to April 29, 1997, from its gross receipts tax funding source.

To correct the conditions noted, we recommended that (1) the Legislature revise the Standing
Rules to ensure that any future legislation which changes the method of funding a
government entity includes language specifying the disposition of existing funding and
requires a transition period to ensure proper accounting of the transfer, resolve any
uncertainties, and address any legal issues related to the funding changes; (2) the Governor
of Guam require the Director of Administration to prepare written procedures to ensure that
the Treasurer of Guam does not close bank accounts or transfer bank account balances until
affected agencies determine how to clear all legal outstanding transactions; and (3) the Board
of Education require the Director of Education to make a formal written request to the
Department of Administration and the Bureau of Budget and Management Research for the
return of the unused S3 million, an accounting of the $1.6 million used by Administration
to pay Education expenses. and access to the related bank records for April and May 1997.

In the July 23,1998, response (Appendix 3) to our draft report from the Speaker of the Guam
Legislature, the Legislature concurred with Recommendation 1 and indicated that corrective
actions would be taken. The July 23, 1998, response (Appendix 4) from the Governor of
Guam included a July 20.1998, response from the Department of Administration, in which
Administration concurred v ith Recommendation 2 and indicatsd that corrective action would
be taken. In the July 23, 1998, response (Appendix 5) from you, the Board and the
Department of Education expressed general concurrence with the report but disagreed with
certain statements concerning the need for better coordination with Administration to resolve
the reported funding issues. Education did not specifically address Recommendation 3.
Based on the responses, we consider Recommendations 1 and 2 resolved but not
implemented and Recommendation 3 unresolved. Accordingly, the unimplemented
recommendations will be referred to the Assistant Secretary for Policy, h4anagement and
Budget for tracking of implementation, and the Board of Education is requested to provide
a response to Recommendation 3, which is unresolved (see Appendix 6).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which correctijwe action has not been
taken.

In view of the above, please pro\.ide a response, as required by Public Law 97-357, to this
report by September 30, 1998. The response should be addressed to our Pacific Office,
4 15 Chalan San Antonio, Baltej Pai*ilion, Suite 306, Tamuning, Guam 969 11. The response
should pro\.ide the information requested in Appendix 6.
We appreciate the assistance of management and staff of the Department of Education in the
conduct of our audit.

                                             Sincerely.



                                             Richard N. Reback
                                             Acting Inspector General
                                                                       %1X-GUA-004-97-A


              United States Department of the Interior
                            OFFICE OF INSPECTOR GEXERAL
                                   Washington, D.C. 20240


                                                           m 28 i998
The Honorable Carl T.C. Gutierrez
Governor of Guam
Office of the Governor
Agana, Guam 969 10

Subject:   Audit Report on Operational Funding Status, Department of Education,
           Government of Guam (1;~. 98-I-6L 3 >

Dear Governor Gutierrez:

This report is the first in a series of reports on various operations of the Department of
Education, Government of Guam. It presents the results of our review of Education’s
operational funding status as of April 30, 1997. The objective of our review was to
detemline whether the Departments of Education and Administration complied ivith
applicable laws and budgetary and accounting procedures relating to the allocation and
transfer of appropriated and encumbered funds upon the change of the Department of
Education’s primary funding source from General Fund appropriations to the Gross Receipts
Tax during April and May 1997. The scope of the audit included the status of Education
funds as of April 30, 1997, and related financial transactions and Legislative and Esecutii-e
branch actions affecting the funds that occurred during the period of May 1997 to February
1998.

We concluded that the Government of Guam needed to make improvements in the areas of
financial legislation and financial management. Specifically, we found that the Department
of Education’s financing of routine operations was disrupted in May 1997 because the
Department of Administration transferred $5.6 million from hvo Education bank accounts
to a General Fund bank account without Education’s knolvledge or approval and, as of
February 28, 1998, had not returned S3 million in unused funds or provided Education with
an accounting of the expended funds. Administration made these transfers as part of its
effort to comply with Public Law 23-l 7 to change Education’s main operations funding
source. However, the transfers were not in accordance with the intent of Public Law 21- 17
or the language of Public Law 23-33, the latter of which was subsequently enacted to rsquire
that existing accounts related to Education be transferred to the School Operations Fund.

These conditions occurred because (1) the Public Laws did not identify which fllnds
Education should retain and did not provide for a transition period to implement the
mandated changes, (2) the Departments of Administration and Education did not coordinate
effecti\Tely during the transition process, and (3) Administration did not have adequate
written procedures for closing bank accounts. We detemlined that, as a result, Education did
not have access to more than S4 million in previously a\.ailable funds and was unable to
determine exactly what financial resources would be available for fiscal year 1997
operations. Additionally, Education had to pay $2.8 million of the expenses incurred prior
to April 29, 1997, from its gross receipts tax funding source.

To correct the conditions noted, we recommended that (1) the Legislature revise the Standing
Rules to ensure that any fixture legislation which changes the method of funding a
government entity includes language specifying the disposition of existing funding and
requires a transition period to ensure proper accounting of the transfer, resolve any
uncertainties, and address any legal issues related to the funding changes; (2) you, as the
Governor of Guam, require the Director of ‘4dministration to prepare written procedures to
ensure that the Treasurer of Guam does not close bank accounts or transfer bank account
balances until affected agencies determine how to clear all legal outstanding transactions;
and (3) the Board of Education require the Director of Education to make a formal written
request to the Department of Administration and the Bureau of Budget and Management
Research for the return of the unused $4 million, an accounting of the S 1.6 million used by
Administration to pay Education expenses, and access to the related bank records for April
and May 1997.

In the July 24,1998, response (Appendix 3) to our draft report from the Speaker of the Guam
Legislature, the Legislature concurred with Recommendation 1 and indicated that corrective
actions would be taken. The July 23, 1998, response (Appendix 4) from you included a
July 20, 1998, response from the Department of Administration. in which Administration
concurred with Recommendation 2 and indicated that correctii,e action would be taken. In
the July 23, 1998, response (Appendix 5) from the Chairperson of the Board of Education,
the Board and Education expressed general concurrence with the report but disagreed with
certain statements concerning the need for better coordination with Administration to resolve
the reported funding issues. Education did not specifically address Recommendation 3.
Based on the responses, we consider Recommendations 1 and 2 resolved but not
implemented and Recommendation 3 unresolved. Accordingly, the unimplemented
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation, and the Board of Education is requested to provide
a response to Recommendation 3, which is unresolved (see Appendix 6).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by September 30, 1998. The response should be addressed to our Pacific Office,
415 Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning, Guam 969 11. The response
should provide the infomlation requested in Appendix 6.
We appreciate the assistance of the Legislature and the management and staff of the
Department of r2dministration, the Department of Education, and the Bureau of Budget and
Management Research in the conduct of our audit.

                                            Sincerely,



                                            Richard X. Reback
                                            Acting Inspector General
                                                                      N-IN-GL’A-003-97-A


             United States Department of the Interior
                            OFFICE OF INSPECTOR GESERAL
                                  Washington, D.C. 20240




The Honorable Antonio R. Unpingco
Speaker, Twenty-Fourth Guam Legislature
155 Hesler Street
Agana, Guam 96910

Subject:   Audit Report on Operational Fundin,0 Status. Department of Education,
           Goyernment of Guam (IJO. 93-I-C-- 3 >

Dear Speaker Unpingco:

This report is the first in a series of reports on L*arious operations of the Department of
Education, Government of Guam. It presents the results of our review of Education’s
operational funding status as of April 30, 1997. The objective of our review was to
determine whether the Departments of Education and Administration complied with
applicable laws and budgetary and accounting procedures relating to the allocation and
transfer of appropriated and encumbered funds upon the change of the Department of
Education’s primary funding source from General Fund appropriations to the Gross Receipts
T.n during April and May 1997. The scope of the audit included the status of Education
fLnds as of April 30, 1997, and related financial transactions and Legislative and Executive
branch actions affecting the funds that occurred during the period of May 1997 to February
1998.

We concluded that the Government of Guam needed to make improvements in the areas of
financial legislation and financial management. Specifically, we found that the Department
of Education’s financing of routine operations was disrupted in May 1997 because the
Department of Administration transferred 525.6 million from two Education bank accounts
to a General Fund bank account without Education’s knowledge or approval and, as of
February 28, 1998, had not returned S3 million in unused funds or provided Education with
an accounting of the expended funds. Administration made these transfers as part of its
effort to comply with Public La\\ 24- 17 to change Education’s main operations funding
source. Ho\ve\-er, the transfers were not in accordance with the intent of Public Law 24- 17
or the language of Public Law 24-34, the latter of which was subsequently enacted to require
that existing accounts related to Education be transfer-red to the School Operations Fund.

These conditions occurred because (1) the Public Law did not identify which funds
Education should retain and did not provide for a transition period to implement the
rn;~ndated changes, (2) the Departments of Administration and Education did not coordinate
effecti\wely during the transition process, and (3) Administration did not haire adequate
written procedures for closing bank accounts. We determined that, as a result, Education did
not have access to more than $4 million in previously a\.ailable funds and was unable to
detennine exactly what financial resources would be available for fiscal year 1997
operations. Additionally, Education had to pay $2.8 million of expenses incurred prior to
April 29, 1997, from its gross receipts tax funding source.

To correct the conditions noted, we recommended that (1) the Legislature revise the Standing
Rules to ensure that any future legislation which changes the method of funding a
3~ovemment entity includes language specifying the disposition of existing funding and
requires a transition period to ensure proper accounting of the transfer, resolve any
uncertainties, and address any legal issues related to the funding changes; (2) the Governor
of Guam require the Director of Administration to prepare written procedures to ensure that
the Treasurer of Guam does not close bank accounts or transfer bank account balances until
affected agencies detemline how to clear all legal outstanding transactions; and (3) the Board
of Education require the Director of Education to make a formal written request to the
Department of Administration and the Bureau of Budget and Management Research for the
return of the unused $3 million, an accounting of the $1.6 million used by Administration
to pay Education expenses, and access to the related bank records for April and May 1997.

In the July 24, 1998, response (Appendix 3) to our draft report from you, as the Speaker of
the Guam Legislature, the Legislature concurred with Recommendation 1 and indicated that
corrective actions would be taken. The July 23, 1998, response (Appendix 4) from the
Governor of Guam included a July 20, 1998, response from the Department of
Administration, in which Administration concurred with Recommendation 2 and indicated
that corrective action would be taken. In the July 23. 1998, response (Appendix 5) from the
Chairperson of the Board of Education, the Board and the Department of Education
expressed general concurrence with the report but disagreed with certain statements
concerning the need for better coordination with Administration to resolve the reported
funding issues. Education did not specifically address Recommendation 3. Based on the
responses, we consider Recommendations 1 and 2 resoli.ed but not implemented and
Recommendation 3 unresolved. Accordingly, the unimplemented recommendations will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation, and the Board of Education is requested to provide a response to
Recommendation 3, which is unresolved (see Appendix 6).

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reportin,(J to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by September 30, 1998. The response should be addressed to our Pacific Office,
415 Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning, Guam 96911. The response
should provide the information requested in Appendix 6.
We appreciate the assistance of the Guam Legislature in the conduct of our audit.

                                             Sincerely,




                                            Acting Inspector General
                                                  CONTENTS
                                                                                                                         Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

          BACKGROWD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          OBJECTIVE ALND SCOPE ........................................ 2
          PRIOR AUDIT COVERAGE ...................................... 3

FINDING             AND            RECOMMENDATIONS                          .................................. 4

          OPERATIONAL                     FINANCING                   .....................................               4

APPENDICES

          1. CLASSIFICATION OF MONETARY AMOUNTS .................. a9
          2. SUMMARY OF ADJUSTMENTS TO GENERAL FUND
             APPROPRIATIONS FOR THE DEPARTMENT OF EDUCATION . . . . 10
          3. SPEAKER OF THE GUA!! LEGISLATCXE RESPONSE ............ 11
          4. GOVERNOR OF GUAM RESPONSE ............................ 13
          5. CHAIRPERSON, BOARD OF EDUCATION. RESPONSE ........... 18
          6. STATUS OF AUDIT REPORT RECObfMEXDATIOKS ............ .21
                                 INTRODUCTIOY

BACKCROCTXD

The original (1950) version of the Organic Act of Guam (Title 48, Section 1421g(b), of the
US. Code .\nnotated) stated, “The Governor [of Guam] shall provide an adequate public
educational system of Guam, and to that end shall establish, maintain, and operate public
schools according to the laws of Guam.” The Organic .\ct also provided that the Governor
of Guam would appoint the members of the Territorial Board of Education, with the advice
and consent of the Legislature. However, in 19S6, the C.S. Congress amended
Section 1421g(b) by replacing the word “Go\~emor” \X ith the term “Government of Guam,”
thereby giving the Go\~ernment of Guam the option of establishing an educational system
outside the direct control of the Governor.

On November 19, 1993, the Guam Legislature overrode the Governor‘s veto and enacted
Public Law No. 22-42, which repealed and enacted a new \.ersion of Title 17, Section 3 101,
of the Guam Code Annotated, to establish the Department of Education within the
Go\-emment of Guam. Section 3 102 of the new version states, “The Department [of
Education] shall be administered through the Territorial Board of Education . . . which shall
be the governing and policy-making body of the Department.” Section 3 102(a) states that
the Territorial Board will hire a Director and Deputy Director of Education. On
September 19 and December 13, 1995, respectively, the Governor filed two lawsuits against
                                                      3 ‘--l2 “nullified the Governor’s power
the Board of Education, alleging that (1) Public Law __
to supervise and control the Department of Education” and (2) the contracts the Board of
Education had executed with the Director and Deput?. Director were “illegal employment
agreements.” In October 1996, the Guam Superior Court upheld the law establishing the
Board of Education and gi\*ing it the authority to issue contracts.

Prior to April 28, 1997, Education’s primary funding ~3s provided by appropriations from
the General Fund, and the Treasurer of Guam (within the Department OfAdministration) had
effective control, as the only signatory authority, oi‘er all Department of Education bank
accounts. Title 5, Sections 2 1111 and 22 101, of the Guam Code Annotated authorizes the
Treasurer of Guam to administer monies belonging to the Government of Guam, and Title 5,
Sections 4103,4105, and 4109, of the Guam Code Annotated authorizes the Governor and
the Bureau of Budget and Management Research to administer Executive Branch budgets
and states that planned expenditures may be modified or withheld under certain conditions,
such as when the lei-el of revenue collections is lower than anticipated.

On April 28, 1997, Public Law 24-l 7 created the “School Operations Fund” and changed
Education’s primary source of funding from General Fund appropriations to the Gross
Receipts Tax. Under this law, 88 percent of the total monthly collections of gross receipts
taxes are to be transferred to the Department of Education. Further, effective on May 2 1,

                                             1
1997, Public Law 24-33 amended Title 11 of the Guam Code Annotated by adding
Section 26208, which designated the Director of Education as the official responsible for
receiving, accounting for, and disbursing all monies in the School Operations Fund.

On February 27,1998, the Guam Legislature overrode the Governor’s veto and passed Public
Law No. 24-142, which divided the Board of Education into four elected “District Boards
of Education” with four District Superintendents. In addition, a restructured Department of
Education, with the Director appointed by the Governor, was created to provide guidance to
and coordinate the activities of the Districts and to “serve as the state educational agency for
purposes of Federal statutes, policies, aOrants, programs and regulations.” Further, Public
Law 24-142 provides for the existing school board to serve on an interim basis for a l-year
transition period and for the election, in November 1998, of the members of the four new
District Boards of Education. The District Boards consist of six voting members selected
by popular election, one voting member representing the high schools in the respective
district, and one nonvoting member representing the respective teachers’ union. The Boards
also have the authority to increase the number of noni.oting members.

During fiscal year 1997, the Department of Education had total revenues of S 168.8 million
(S152.6 million from local sources and S16.2 million from Federal sources) and total
expenditures of $167.2 million (Sl50.6 million from local funds and S16.6 million’ from
Federal funds). During the same fiscal year, Education had 3,792 employees and
administered 36 schools with a total enrollment of 32,923 students.

OBJECTIVE AYD SCOPE

The objective of our review was to detemline whether the Departments of Education and
Administration complied with applicable laws and budgetary and accounting procedures
relating to the allocation and transfer of appropriated and encumbered funds upon the change
of the primary funding source for Education during April and biiay 1997. The scope of audit
included reviews of applicable laws and regulations and financial records through
September 30, 1997, that reflected the results of the change in Education’s primary funding
source. qJe also interviewed Legislative and ExecutiLve branch officials regarding actions
taken during the period of April 1997 through February 1998 that affected the status of
Education’s funding source. We visited the offices of the Legislature of Guam, the
Department of Education, the Department of Administration (including the offices of the
Controller and the Treasurer), and the Bureau of Budget and Management Research.

Our scope was limited because, according to Education’s Controller, the Department’s bank
accounts had not been reconciled for at least 1 year prior to April 1997. Additionally,


‘Expenditures from Federal funds exceeded revenues from Federal sources because Education had carryover
funds from fiscal year 1996 that were ai ailable for use during fiscal year 1997.

                                                  2
audited financial statements for the Department wsre not ai*ailable for fiscal years 1995 and
1996.’ However, Education did reconcile its new bank accounts (which were opened as a
result of Public Laws 24- 17 and 24-34) for the period of May to September 1997 and has
prepared draft financial statements for fiscal year 1997.

The audit was made, as applicable, in accordance with the “Go\-emment Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the system of internal controls related to the transition of
the funding source of the Department of Education to the extent that we considered necessary
to accomplish the audit objective. We identified internal control weaknesses, which are
discussed in the Finding and Recommendations section of this report.                     Our
recommendations, if implemented, should impro1.e the internal controls in this area.

PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office of
Inspector General has issued any audit reports concerning the change of primary funding
source for the Department of Education. Additionally, although an independent public
accounting firm issued single audit reports on the Government of Guam for fiscal years 1990
through 1996, separate single audit reports and financial statements were not available for
the Department of Education.




‘Xlthough the Department of Education’s financial transacrions for fiscal years 1995 and 1996 were audired
as part of the overall Government of Guam annual financial audits, the only details on Education’s finances
included in the overall financial statements were budgeted and actual revenues and expenditures. Balance
sheets were not available for the Department of Education as of the end of fiscal year 1996. As a result,
b’e could not accurately determine the beginning balances of outstanding payables at the start of fiscal fear
1997 that may have had an impact on outstanding encumbrances as of April 28, 1997.

                                                     3
                FINDING AND RECOM~IENDATIONS

OPERATIOX4L FIX4NCISG

The Department of Education’s financing of routine operations was disrupted in Ma>. 1997
because the Department of Administration transferred S5.6 million from two Education bank
accounts to the General Fund and then closed these accounts without Education’s knowledge
or approval. Also, as of February 28, 1998, Administration had not returned the unused
portion of the funds or provided Education with an accounting of the use of the funds.
Administration officials said that they transferred the S5.6 million to a General Fund bank
account as part of Administration’s efforts to comply with Public Law 24- 17. Howe\.er, we
believe that these transfers were not in accordance with the intent of Public Law 24-17 and
the subsequent Public Law 24-34. The transfers occurred because (1) neither public law
identified which f%nds Education should retain after a change in its source of funding and
did not provide for a transition period to implement the mandated change, (2) the
Departments OfAdministration and Education did not cooperate effectively in the transition
process, and (3) Administration did not have adequate written procedures for closing bank
accounts. As a result, Education did not have access to $4 million (after payment by
Administration of $1.6 million in preexisting Education expenses) and was unable to
determine the exact amount of financial resources a\.ailable for operating expenses for the
remainder of fiscal year 1997. Additionally, Education had to pay, from Gross Receipt Tax
revenues rather than from General Fund appropriations, expenses of S2.8 million that
were incurred prior to April 29, 1997.

Transfer of Funds

Public Law 24-l 7 was enacted on April 28: 1997, with the Guam Legislature’s o\-erride of
the Governor’s veto, to provide Education with a funding source separate from the General
Fund. Although Public Law 24-l 7 created the School Operations Fund, it did not address
the disposition of the existing unexpended balances of General Fund monies appropriated
for educational purposes and deposited into Education’s bank accounts. The only reference
in Public Law 24- 17 to the appropriated funding for Education was the statement, “Upon the
effective date of this Section, all previous appropriations to the Department of Education for
fiscal year 1997 are repealed.” A Guam Senator told us that, to clarify this issue, on \lay 6,
1997, the Legislature passed Public Law 24-34 (enacted on &lay 21, 1997, without the
Governor’s signature). Section 9(b) of Public Law 24-33 stated, “All existing Depanment
ofAdministration accounts for the Department ofEducation shall be deposited or transferred
to the School Operations Fund for use by the Department of Education in fiscal year 1997.”
However, between the date of passage of Public Lawr 24-34 (May 6, 1997) and the date of
its enactment (May 21,1997), the Department OfAdministration had transferred $5.6 million
(see Appendix 2) from Education’s bank accounts to the General Fund.


                                              4
Two of the main Legislative sponsors of Public Law 23-17 told us that the law was intended
to ensure that Education had adequate funding through the effective date of the lau
(April 28, 1997) by allowing Education to use funds provided from General Fund
appropriations for that period. However, Public Law _“4-l 7 did not (1) contain language
addressing what funds should be retained or transferred or (2) provide for a transition period
(such as 60 days) to address questions and resolve differences of opinion instead of, in effect,
requiring immediate implementation. The Standing Rules of the 24th Guam Legislature did
not include requirements to address such issues in draft legislation. In addition, although
Public Law 24-34 included some guidance on what the Legislature intended with the existing
appropriated funds, this law did not prevent the transfers because they had occurred before
the May 21, 1997, effective date of the law.

         Interagency Coordination. The Departments of Administration and Education did
not adequately coordinate financial information to identify expenditures that occurred before
April 29, 1997, and that should have been paid from General Fund appropriations.
According to Administration’s Controller, Administrarion could not determine how much
of the $5.6 million balance in Education’s bank accounts was needed because Education had
not provided Administration with a complete listing of outstanding encumbrances for the
period prior to April 29, 1997. The Controller told us that without the financial information
and because Public Law 24-17 did not provide clear guidance, ,4dministration had to act to
control the funds in Education’s bank accounts to ensure that the General Fund had sufficient
monies to pay all outstanding checks issued on these accounts.

         Procedures for Closing Accounts. Administration did not have \\ ritten policies or
procedures that provided guidance on how and when to transfer funds and close Government
of Guam bank accounts. In our opinion, since ,4dministration had the sole signature
authority over Education’s bank accounts, Administration did not need to close Education’s
two bank accounts before all outstanding checks had cleared or to immediately transfer the
$5.6 million to a General Fund bank account. Administration’s Controller told us that, in his
opinion, there was no urgency to close the Education bank accounts and that, in retrospect,
the bank accounts probably should have remained open until all outstanding checks had
cleared. ,4s a result, Administration’s accounting and management personnel unnecessarily
expended at least 130 hours on work related to resolvin,* accounting and banking problems
that occurred because the accounts were closed.

Accounting for Transferred Funds
Title 5, Section 7 102, of the Guam Code Annotated requires Executive Branch employees
to manage public money with “prudence and diligence under the circumstances then
prevailing that a prudent person acting in like capacity . . . would use.” In addition, Title 5,
Section 22203, of the Code requires the Director of ,4dministration to “determine fairly . . .


                                               5
[the] results of financial operations; . . . [and] provide a basis for financial and administrative
control. . . .‘I Further, Public Law 24-34, Section 9(b) stated, “All existing Department of
Administration accounts for the Department of Education shall be deposited or transferred
to the School Operations Fund for use by the Department of Education in fiscal year 1997.”

         Reductions to Appropriations. Despite these requirements, on May 7, 1997, the
Acting Director of the Bureau of Budget and Management Research, based on information
provided by Administration and without contacting Education to determine what funds were
needed, withdrew S4.9 million in allotments previously provided to Education. The form
“Request for Appropriation and Allotment Xlodification, ” which Budget and Management
Research prepared to effect the reduction in allotments, stated that the S4.9 million was
“unexpended by DOE [Department of Education].” A subsequent S2.1 million increase to
Education’s allotments resulted in a net reduction by Budget and Management Research of
about S2.8 million. A Budget and Management Research official told us that, based
on the policy of the Bureau of Budget and s?anagement Research, the S2.8 million could
not be returned to Education once the fiscal year 1997 appropriation period ended. As a
result, Education lost the use of this S2.S million during fiscal year 1997 (see Appendix 2).

         Liquidation of Outstanding Checks. After the net reduction of S2.8 million in the
General Fund appropriations for Education, the remaining $2.8 million (of the $5.6 million
that Administration had transferred from Education’s bank accounts) was available for
Administration to use in liquidating outstanding checks that were written against the
accounts prior to April 29, 1997. However, as of September 30, 1997, ,4dministration had
paid only $1.6 million to liquidate outstanding checks, and, as of the date of completion of
our audit (February 25, 1998), Administration had not (1) returned the $1.2 million
unexpended balance to Education, (2) provided Education with an accounting report on the
S1.6 million used to pay Education expenses, and (3) provided Education the records
(including bank statements and canceled checks) for Education’s operations and payroll bank
accounts for April and May 1997.

According to Administration’s Controller, Education had not made a formal request for the
return of the funds, an accounting of the funds, or the bank statements. The Controller
stated, “The bank statements can be provided immediately and the balance of the funds
would be provided once all checks have either cleared or become stale dated.” Based on our
review, we concluded that Education lost the use of S4 million in General Fund
appropriations (see Appendix 2), which consisted of (1) the net amount of S2.S million that
Budget and Management Research reduced Education’s appropriations and (2) the
S 1.2 million in unexpended funds that Administration held after liquidating outstanding
checks that had been issued against Education’s bank accounts prior to April 29, 199:.
Further, Education subsequently had to pay, from Gross Receipts Tax revenues, expenditures
of an additional S2.8 million that were incurred prior to April 29, 1997, and that would have
been properly chargeable against the General Fund appropriations of $4 million that lvere
transferred from its bank accounts.

                                                6
Recommendations

We recommend that:

          1. The Speaker of the Guam Legislature propose that the Standing Rules be revised
to ensure that any future legislation which changes the method of fllnding a govemment
entity includes language that specifies the disposition of existing funding and requires a
transition period to ensure that the transfer is properly accounted for, any uncertainties as to
legislative intent are resolved, and legal issues related to the funding changes are addressed.

       2. The Governor of Guam require the Director of the Department of Administration
to prepare written procedures to ensure that the Treasurer of Guam does not close bank
accounts or transfer funds in bank accounts until the affected agencies have had the
opportunity to determine the best method for clearing all legal (outstanding) transactions.

        3. The Board of Education require the Director of the Department of Education to
make a formal written request to the Department of Administration and the Bureau of Budget
and Management Research for the return of the unused balance of $4 million from the
$5.6 million originally transferred from Education’s bank accounts, an accounting of the
$1.6 million used by the Department of Administration to pay Education expenses, and the
records for transactions in Education’s bank accounts during April and May 1997.

Guam Legislature Response and Office of Inspector General Reply
In the July 23, 1998, response (Appendix 3) to the draft report from the Speaker of the Guam
Legislature, the Legislature concurred with Recommendation 1 and indicated that corrective
actions would be taken. Based on the response, we consider Recommendation 1 resolved
but not implemented (see Appendix 6).

Governor of Guam Response and Office of Inspector General Reply.
In the July 23, 1998, response (i2ppendis 4) to the draft report from the Governor of Guam,
the Department of Administration concurred with Recommendation 2 and indicated that
corrective action would be taken. Based on the response, we consider Recommendation 2
resolved but not implemented (see Appendix 6).

Although Recommendation 3 was not addressed to the Governor, the Department of
Administration, in response to the draft report, stated that our report “fails to confirm
whether or not actual expenditures of S4 [million] was in fact incurred prior to the passage
of Public Laws 24-17 and 24-34” and that, because the report references only S2.8 million
of actual expenditures incurred, “the amount of S2.S [million] is the only amount
reimbursable.” Therefore, Administration requested that we clarify the exact dollar amount
of reimbursements owed the Department of Education.

Although our report stated that Education had incurred. prior to passage of the two public
laws, at least S2.8 million of expenses that it had to pay from revenues received after passage
of the public laws, this infomlation was provided to show the impact of the transfer of the
funds from Education’s account. Our position on the return of the S4 million (which is
supported by our discussions with Legislature officials) is that the Legislature intended for
Education to retain the total amount of funds appropriated to it whether or not Education
incurred any expenditures relating to these funds prior to passage of the hvo public laws.
Therefore, we believe that Education is entitled to reimbursement of S4 million, as indicated
in Recommendation 3.

Board of Education Response and Office of Inspector General Reply
In the July 23, 1998, response (Appendix 5) to the draft report from the Chairperson of the
Board ofEducation, the Board and the Department of Education did not express concurrence
or nonconcurrence with Recommendation 3. Therefore. the Board of Education is requested
to reconsider its response to Recommendation 3, which is unresolved (see Appendix 6).

In a &May 15, 1998, letter included with the response from the Chairperson of the Board of
Education, the Director of Education stated that Education agreed with the general content
of the audit but not with the statement in the report that Education “[was] not adequately
coordinating financial infomlation” with Administration. The Director included a copy of
a XIay 29, 1997, letter in which he transmitted to Administration a listing of outstanding
payables and encumbrances of Education as of April 1997. Education stated that it had
“made an attempt to cooperate with the transition” of funding for its department.

The section ofthe finding “Interagency Cooperation” states, “According to Administration’s
Controller, Administration could not determine how much of the S5.6 million balance in
Education’s bank accounts was needed because Education had not provided Administration
with a complete listing of outstanding encumbrances for the period prior to April 29, 1997.”
That statement is an accurate representation of statements made by Administration’s
Controller at the time of the audit. Additionally, Administration officials stated that the
listings of outstanding payables and encumbrances referred to in the Director of Education’s
letter were not received (see May 22, 199S, letter from the Director, Department of
,4dministration, in Appendix 4). Based on our review of the listings provided by Education,
we noted that the documents included accounts payable totaling SS32,767 and outstanding
purchase orders totaling $1,094,552. However, we subsequently detemlined that the listings
were incomplete because they did not include outstanding utility billings totaling S 1,997,320.
As such, in our opinion, better interagency coordination would haye diminished or aI.oided
the funding problems discussed in the report.


                                               8
                                                          APPENDIX 1


               CLASSIFICATION OF MONETARY ,4MOUNTS


                                          Funds To Be Put
                       Finding Area        To Better Use*

        Operational Financing               $4,009,33 1




*Amount represents local funds.


                                      9
                                                                                                                APPEXDIX 2


                          SUMMARY OF ADJUSTMENTS TO
                        GENERAL FC’SD APPROPRIATIONS FOR
                         THE DEPARTMENT OF EDLC4TION

                                     Description                                                      Amounts             Item X0.

Reductions to Education Appropriation Allotments:

     Appropriation Allotments as of May 1) 1997                                                     W,211,164                   I
     May 7, 1997 Allotment Reduction                                                                  (4938,636)                2
         Interim Appropriation Allotment Amount                                                     $78,272,528
     Late May 1997 Allotment Reinstatement                                                             2.180,879
         Final Appropriation ,411otment Amount                                                      sso.353.407                 3

     Appropriation Allotments as of May 1, 1997 (See item 1)                                        $83,211,163
     Final Appropriation Allotment Amount (See Irem 3)                                              (SO.353,407)
         Net .May 1997 Reduction to Appropriation Allotments                                         S2.757.75’

Transfers From Education Bank Accounts:

     May 7, 1997 Transfer (Operations Account)                                                       $4,296,980
     May 7, 1997 Transfer (Payroll ‘4ccount)                                                            631,656
        Subtotal May 7, 1997 Transfers (See Irem 2)                                                  S+938,636
     May 14, 1997 Transfer (Operations Account)                                                          38,937
     May 15, 1997 Transfer (Payroll Account)                                                            622.453
        Total 1ialv 199? Transfers from Education Accounts                                           55.600.026

Status of Funds Transferred From Education:

     Total Transfers from Education Accounts (See /tern 5)                                           S5,600,026
     Yet May 1997 Reduction to Appropriation ,411otments (See Item 4)                                [2,757,757)
         ‘4mount Available for Education Expenses                                                    S2.8-12,269
     Education Bills Paid by Administration                                                          f 1.590,695)
         Cnused’C’naccounted for Transfers                                                           S1.251.574

Summary of Adjustments to General Fund Appropriations for Education:

     Net X1ay 1997 Reduction to Appropriation Allotments (See /tern cl)                              s2,757,757
     C’nused’Unaccounted for Transfers (See 1telpz 6)                                                 1.25 1,573
         Total General Fund Appropriations Il’ot Available to Education *                            51.009.33 1


* The Department of Education subsequentI> pald, from Gross Receipts Tax rep enues, addluonal ekpendltures ofS2.803.257 [ha: \\ere
incurred before Apnl 29. 1997. and that nould hake been properly char_eeable aga:nst this S4.009,3_11 In General Fund appropna:;ons




                                                                10
                                                                                              APPESZIX 3
                                                                                              Page 1 of 2

                      WINA'         BBNTB          KUATTRO         NA    LIHESLATURAN                      GUhfAN

                      ( TwENlY*CouRlH WAN UQlKAnJm 1




Mice   of the Spcikm          Senator

                              soeaker
                                        Antonio Ft. UnpbWCO                          155HeslecS~eet.Har;d:'a.Guam96910
                                                                        Phones (671)472-3455/56/57    l   F= (671)472-3400
                                                                                               e-mad s+r’Zdkirentos   guam net

                                                                                                      Webs.?e of the Speaker
                                                                                              www guam net gov!senateispkrl2
       July 24,1998


       Mr. Richard N. Reback
       Acting Inspector General
       c/o US Department of Interior
       Office of Inspector General
       North Pacific Region
       415 Chalan San Antonio
       Baltej Pavilion, Suite 306
       Tamuning, Guam 96911


       RE:    N-IN-GUA-004-97-A: Operational Funding Status, Department of
              Education, Government of Guam.


       Dear Mr. Reback:

       This letter serves as the official response of the 21’” Guam Legislature in the
       matter of the draft audit report of the Operational Funding Status for the
       Department of Education.

       In response to your office’s recommendation, I am working with the Senator
       Mark Forbes and our Legislative Counsel, Attorney Douglas Moylan to make the
       appropriate changes to the 24” Guam Legislature’s Standing Rules to
       accommodate the recommendations you have made for the remainder of our
       legislative term. Also, I will be discussing the recommendations with the
       Chairman of the Committee on Finance and Taxation, who has purview over
       appropriation measures.          Those recommendations being making specific
       disposition of existing funds and providing a transition period to ensure the an!
       transfer of funds is properly accounted for, that legal issues are resolved and that
       legislative intent is clarified.

       However, you should be aware that the Standing Rules of the Legislature are
       adopted by each legislature at the beginning of their respective terms.
       Accordingly, each legislature has the prerogative to change the Standing Rules,
       as they deem appropriate. Ultimately, this Legislature can not bind future




                                                              il
                                                                     kPPEShi>i 3
                                                                     Page 2 cf 2

legislatures to the same Standing Rules. As a more permanent solution, we are
researching whether enacting legislation, which would incorporate your
recommendations, would be feasible.

I expect that we will resolve this matter no later than November 1, 1998. Senator
Forbes will be the contact person who will oversee the implementation of the
changes to the Standing Rules. Please know that the 24ti Guam Legislature will
work to ensure that the recommendations of your office are followed.

Thank you for the opportunity to address your concerns. Should you have any
further questions, please do not hesitate in contacting me.




   onio R. Unpingco


      Mr. Bill Prowse
      Senator Mark Forbes
      Atty. Douglas, Moylan, Legislative Counsel




                                            ...
                                            I’
                                                                              APPENDIX 4
                                                                              Page 1 or’ 5



                                       UFISINAN I htlAw1’lAHI
                                        TERITORION GUAM




Mr. Robert J. William
Acting Inspector General
U.S. Department of the Interior
Office of the Inspector General
Pacific Field OffIce
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911


Dear Mr. William,

Enclosed is the Department of Administration’s response and action plans regarding the
Inspector General’s Audit Report on “Operational Funding Status, Department of Education,
Government of Guam (N-IN-GUA-004-97-A).

Should you have any questions, please call or write us.


                                              Sincerely,



                                             CARL TC GUTIERREZ
                                             Governor of Guam
                                                                       ’ .
                                                                       *(
                                                                      / ,f
                                                                             .
                                                                                  -.Ai_”   A-P-P E?JW 4
                                                                                           ‘Page 2 6?! 9
                                                                                 (_ ‘;I
                                                                              5 ._               . 4. 3.’ ,
                                                                                                      l’/ !
                                                                                                 a
                                                                            A / IPp,
                                                                                     *’ 1.’
                          GEPARTMENT OF AGMINISTR-ATIOf++-: ‘:            . _ 4           - afi T.C. Gutierrez
                                                                            .   --__
                             (DlPA7TAMENTON ATMENESTRASl3N) - --___ -_ - - . -1 , I                 *mar
                                                                      -_           ., c-““g ,’
                                    DIRECTOR’S Off ICE                       --_ _ M%he Z. Bordallo
                                   (UFISINAN DIREKTO~                                        hy?wum Governor

                        Post Office Box 884 Agana. Guam %932
                                              l


                     Tel.: (671) 475-1101/1250  Fax: (671) 477-6788
                                                   l




                                                  July 20, 1998


The Honorable Carl TC. Gutierrez
Governor of Guam
Ricardo J. Bordallo Complex
Agana, Guam 96910


 Subject:      Response to Draft Audit Report on Operational Funding Status,
               Department of Education, Government of Guam (Assignment No. N-
               IN-GUA-004-97-A)


Dear Governor Gutierrez:

H%a Adai!

The Department of Administration provided the Office of inspector General with a written
response on the Preliminary Draft Audit Report on the Department of Education’s Funding
Status for the period April and May 1998. Please see the acached copy.

Below is DOA’s response to each of the findings and recommendations, including specific
reasons for any nonconcurrence. In addition, the responses also provide information on
actions taken or planned, including target dates and titles of officials responsible for
imp tementation.

Recommendation No. 1:

No action is needed from the Department of Administration as it relates to the Guam
Legislature’s Standing Rules Committee.

Recommendation No. 2:

DOA concurs with the recommendation number two. DOA will prepare written standard
operating procedures for future closure of the various bank accounts. This task has been
assigned to Mrs. Y’Asela Periera, Treasurer of Guam and wiil be completed within one
month.

                                            14
L:r,s: :o   the Honoracie Carl T. C. Gurlenez
            Governor oi Guam
73;.
Lb...    Response 10 Draft Rcpon on Operarionai Funding Sro:us
         Deparnnent of Educarion, Government of Guam
         (Assignment ;%‘o. .~:.r,~-GC:4-004-97-A)
I&y 20. 1998
?zne
  - -’

Recommendation No. 3:

It is recommended that the Department of Education provide a formal request for the return
of the unused balance of $4M to both the Department of Administration and the Bureau of
Budget and Management Research. However, the Draft Audit Report fails to confirm
whether or not actual expenditures of S4M was in fact incurred prior to the passage of
Public Laws 24-l 7 and 24-34. Furthermore, the Draft Audit Report only references 82.8M
of actual expenditures incurred. Therefore, the amount of $2.8M is the only amount
reimbursable. The difference of S1.2M (the unused balance of S4M less the actual
expenditures of $2.8M) remains unexplained. In view of the above, a confirmation is
warranted from the Office of the Inspector General to further ciarify the exact dollar amount
of reimbursements owed to DOE.

The Division of Accounts will remit the bank statements and enclosures for the $1.6M to
the Department of Education. These documents will provide information which will aid
DOE’s accounting records and bank ledgers. This task will be completed within one
month by Mr. Ver Apilado, Acting Management Analyst IV of the Division of Accounts.

Should you have any questions concerning this report. do not hesitate to contact me at
475-l 250.

Dsngkolo na Si YWOS Ma&e.




                                                     MICHAEL J. f%lDY
                                                     Direcror



             USDOI - lrmector General
             Acting Director, BBMR




                                                15
                                                                               APPE,L’DlX 4
                                                                               Page 4 of 5


                          DEPARTVENT OF ADhlINISTRAT10~                               C~x. T c. CL::E?dKZ
                               iDIP,-l l’?XWE,~70.V A T.ME.\‘ES TlUSiO.‘~,                    Governor
                                     DIRECTOR’S OFFICE
                                        ( L’FISI,%LV D!RE?C-0 T)
                               Pssr Office Box 854 W Acaha.
                                                        <    Goam 95332             .Yl_l\3iTLG..
                                                                                              =TUE 2. 5S.U.C:
                            T-c!. (6;:) 475-l 101/1250 m Fax: (671) ;;;-5:68            f icutcnant Governor




                                                 May 22, 1998


Mr. Bill Prowse
U.S. Department of Interior
Office of the Inspector General
238 Archbishop F.C. Flores Street
Suite 807 PDN Building
Agana, Guam 96910

Dear Mr. Prowse:

Hafa Adai!

Following our meeting and after reviewing the preliminary draft report, the Department of
Administration submits the following comments:

The passage of Public Laws 24-17 and 24-34 created the School Operations Fund
earmarking 88% of gross receipt taxes to Department of Education. These laws were
enacted without addressing the proper transition period.

Due to improper guidance, procedures were taken in accordance with each Department’s
interpre?ations of the law. The change of funding sources resulted in adjustments related
to the appropriation accounts and the actual liability for checks signed by the Treasurer of
Guam and issued prior to April 29, 1997.

During May 1997, the Department of Administration would have transferred the remaining
bank balance to Department of Education as soon as a listing of all outstanding checks or
accounts payables were fonvarded with supporting vendor’s invoices. Unfortunately, the
Department of Administration has not received the above documents. As a result, the
liquidity of S1.2 Million remain in DOA’s General Ledger as a payable to Department of
Education. In addition, bank statements including canceled checks have been utilized by
DOA to reconcile the General Fund Bank account for charges and other adjustments which
were made. The bank statements and canceled checks remain with DOA and will be
returned back to DOE.

Please be assured that the Department of Administration has done everything pcssible to
reconcile this problem. The Department of Education received $152.6 Million dollars
during FY 1997. As a result, DOE has an excess of revenues less expenditures of $2.2
Million. It appears that for the current year total expenditures were adequately funded and
therefore the issue for adjustment in the appropriation level back in Aprii 1997 is
substantiated.


                                            16
                                                                        APPENDI.;< 4
                                                                        Pa&e 5 ci 5
Letter to Mr. Bill Prowse. Office of the InsDector General
3ef.:    Preliminary Dfaf? Report
May 22. 1998
Page 2

DOA agrees that future legisiation should include procedures for the proper accounting and
legal ramifications for multiple funding sources and the transition period.

In addition, DOA agrees that the Treasurer of Guam prepare written procedures to ensure
that affected agencies be involved with the proper closure procedures.

It is recommended that DOE provide a listing of outstanding checks remaining to date,
invoices for payments, a schedule of accounts payable (during the period) and the request
for direct payment.

DOA further recommends that the title in Appendix 2 be changed to “Summary of General
Fund Appropriations with subsequent adjustments related to passage of Public Law 24-V
and Public Law 24-34”.

in addition, the last row entitled “Summary of General Fund Appropriations Not Available
to Education” be changed to “Summary of General Fund Appropriation adjusted per Public
Law 24-17 and 24-34 to Education.”

Dangkolo na Si Ywus M&ase.

                                                   Sincerely,



                                                   MICHAEL-‘J. REIDY
                                                   Director




                                                  17
                                GUAIVIBOARDOFEDUCATION Pa~e1 Of
                                      DEPARTMENT OF EDUCATION
                                          f’ 0. Box DE, Agm, Gum 96932
                                        Tel. (67 1) 734490X3 FLY (67 1) 73-b4904                 !
                                                                                                 ,    -




                                                                              July 23, 1998



                         Mr. William Prowse
                         Department of the Interior
                         Offke of the Inspector General
                         PDN Building
G&da B. Yebaa
                         Hagatna, Guam 96932
Qulfpaxm



                         Re:   Response to Draft Audit Report on Operational Funding Status,
Judfrb P. GutJwtz PLD.
hbbc Informanon O&e            Department of Education, Government of Guam (Assignment
                               No. N-IN-GUA-004-97-A) -

                         Dear Mr. Prowse:

                         The Guam Board of Education concurs with the Director of Education’s
                         response dated May 15, 1998 in reference to the above audit report.
Roland L.C. Talnun@
LwcuPve saxwy
                         Please see the attached document.




                                                                           I‘Gloria B. Nelson
                                                                             Board Chairperson




                         CC:   Director of Education
                               Members, Board of Education



                                       Our Educationa Communmity:
Prepares Students for li)e                     Promotes erceilence                     Pro cities support

                                                           18
                                                                                                            e 2 of _
                         DEPARTMENT OF EDUCATIOX
                                                  P.O. Box DE
                                               Agana, Guam 96932
                                               Tel: (6711 4754457
                                               Fax: (671) 472-5003



Roland L G. Taimanglo                                                              A Line A. Yamashita, Ph. D
 Director of Wucatr’on                                                             Deputy Director of Educatron
                                                                i’ i’ &aI*-t
                                                            MAY 43     &I
         Mr. William Prowse
         Department of the Interior
         Office of the Inspector General
         PDN Bldg. Hagatna, GU 96915

         Subject: Response to Draft Audit

         Dear Mr. Prowse:

         Thank you for allowing the Department the opportunity to respond to the draft audit.
         After further review of the audit, and discussion with Department personnel, we concur
         with the general content of the audit. There are, however, references in the audit to
         statements made by the Department of Administration, DOA, Controller that we feel are
         not entirely accurate.

         On page 9, under Interagency Cooperation, there is a reference to the Department not
         adequately coordinating financial information. We have enclosed, for your review, a
         copy of a letter transmitted to the DOA on May 29, 1997.’ Attached to that original letter
         were listings of outstanding payables and encumbrances as of April 1997. Based on that
         transmittal, we feel that the Department made an attempt to cooperate with the transition.
         Furthermore, we feel that the statements made in that same paragraph, relative to a lack of
         financial information, need to be revisited.

         Aside from the above, the Department has no further concerns with the content of the
         draft audit. Please keep us apprised of any amendments by contacting the Department’s
         Comptroller at 4750420.




                                                        -ROLAND L.G. TAIMANGLO
                                                        DIRECTOR OF EDUCATION




         enclosure



                              COMMONWEALTH NOW!
                                                       19
I

                                   DEPARTMENT OF EDUCATION
                                                              P.O. Box DE
                                                          Agrtaa, Ctum %!W
                                                           Td: (671) 475-CM57
                                                          Fax: (671) 472-5003



    Roland L.G. Tstmsngta                                                                              Alinc A. Ysmashrta. h.D
    D~ractor of Education                                                                            Deputy Director of Educetm
                                                                     May 29, 1997


        ‘Ms. Rebecca T. Quintmilla
        -Ming, Director
        Department of Administration
        P.O. Box 884,
        Agana, Guam 96932
        Dear Ms. Quintanilla:

        In response to your April 30, 1997 letter, the Department of Education is providing the followmg information*

        1       The Dqm-tment of Education has established QCW accounts and authonted new signatories.

       2.       The cheek from the Schd Operation Fund should be made payable to the Dcpartmcnt of Educahon The
                check js to be
                             deposited into our Revenue Account at the Bank of Guam, account number 0101-0248373.

        3.      The Department of Education is unable to identify the composition of the nzmaming balances of the
                operations and payroll ti as we were not provided with the balances of these accounts as of April 28,
                1997.

       4        We are providing you with copies of the April outstanding check listing. The listing was produced based on
                a magnctlc tape of chc&s cleared by the bank. In addition to the check listing, we arc providing lists of
               outstanding payables and outstanding cncumbranccs as of April 1997. These listings aze provided as such
               were encumbered against the April cash balances in accordance with the memorandum rcccivcd from the
               Bureau of Budget and Management Research, dati November 12, 1996 (a copy of which is enclosed). The
               memorandum states that the Dqxmnent of Education is to ~~OXSS requisrtions (encumber funds) against
               actual cash and not ahtmttlt nllocation. Thacfore, the Dcpnrtmult of Education feels that the outstanding
               llabilitles and encurnbrzmces should bc funded throu& the remanning balances of the qxrations amount
               prior to the April 2%,1997 closing. WC are also providing a listing of all deposits made for the month of
               April. Because we have not been provided with the bank stamen&, we are unable to identify the deposits
               that were outstanding as of April 28, 1997.

       WC wst that the information provided is stic~ent for the purposes of mplcmenting the law. Should you require
       fur&z information, please call either Mr. Eloy Lizama or Mr. Scott Mqlan at 475-04 18.

                                                                    Sincerely, _
                                                                                LL \   J
                                                                              L G. TAMANGLO
                                                                    Dmxtor of Education




                                        CO&fMO$WEALTH r;W+‘!
                                                    2 r’
                                                                           APPE>DIX 6

       STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference            Status                      Action Required

          1              Resolved;          The recommendation will be referred to
                         not                the Assistant Secretary for Policy,
                         implemented        Management and Budget for tracking of
                                            implementation. However, when the
                                            amendment to the Standing Rules of the
                                            Legislature is adopted or legislation is
                                            enacted, 3 copy should be provided to our
                                            office.

                         Resolved;          The recommendation will be referred to
                         not                the Assistant Secretary for Policy,
                         implemented        Management and Budget for tracking of
                                            implementation. However, when the
                                            written procedures implemented by the
                                            Department of Administration have been
                                            completed, a copy of the procedures
                                            should be provided to our office.

                         Unresolved.        Reconsider the recommendation, and
                                            provide 3 response indicating concurrence
                                            or nonconcurrence. If concurrence is
                                            indicated, an action plan should be
                                            provided that includes the target date and
                                            title of the official responsible for making
                                            a formal request to the Department of
                                            Administration and the Bureau of Budget
                                            and hlanagement Research for the return
                                            of $4 million transferred from Education’s
                                            bank accounts, an accounting of the
                                            $1.6 million used to pay Education
                                            expenses, and the records for transactions
                                            in Education’s bank accounts during .?ipril
                                            and May 1997.




                                       21
                ILLEGAL OR WASTEFUL ACTIVITIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GEXERAL BY:

Sending written documents to:                                   Calling:



                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 208-5300
Washington, D .C. 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Rem

U.S. Department of the Interior                       (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Repion

U.S. Department of the Interior                       (67 1) 647-605 1
Office of Inspector General
North Pacific Region
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FTS/Commercial Numbers:
 (202) 208-5300            5
 TDD (202) 208-2420       cD
                           w

 HOTLINE E-
1849 C Street, N.W.
Mail Stop 5341
Washington, D.C. 20240
